Audit Report




OIG-06-028
MAJOR ACQUISITIONS: Treasury Communications Enterprise
Procurement Was Poorly Planned, Executed, and Documented
February 10, 2006




Office of
Inspector General
DEPARTMENT OF THE TREASURY
This report has been reviewed for public dissemination by the Office of Counsel
to the Inspector General. Information requiring protection from public
dissemination has been redacted from this report in accordance with the Freedom
of Information Act, 5 U.S.C. section 552.
Contents

Audit Report ............................................................................................... 3

   Results in Brief............................................................................................ 4

   Background ................................................................................................ 8

   Findings and Recommendations .................................................................... 10

       Poor Planning and Execution of TCE Resulted in Delays and
       Increased Costs ...................................................................................... 10

           Treasury Did Not Demonstrate that GSA Contract Vehicles
           Were Fully Considered before Proceeding with TCE ................................ 12

           TCE Business Planning and Procurement Documentation
           Provided during Audit Fieldwork Was Incomplete ................................... 17

           Subsequent Events—Treasury’s Reconsideration of GSA
           Contract Vehicles after Bid Protest Decision Was Incomplete................... 21

       Contract Files Lacked Certain Documentation............................................. 27

       Recommendations................................................................................... 30

Appendices

   Appendix 1:          Objective, Scope, and Methodology ........................................             32
   Appendix 2:          Timeline of Key Events Related to the TCE Solicitation
                        and Our Audit ......................................................................   34
   Appendix 3:          Treasury CIO Transmittal Memorandum for Documentation
                        Provided to OIG on November 18, 2005..................................                 35
   Appendix 4:          Management Response .........................................................          37
   Appendix 5:          Major Contributors to This Report ...........................................          40
   Appendix 6:          Report Distribution................................................................    41

Abbreviations

   ASM/CFO              Assistant Secretary for Management and Chief Financial Officer
   CIO                  Chief Information Officer
   DTS                  Digital Telecommunications System
   Exhibit 300          Capital Asset Plan and Business Case

                        MAJOR ACQUISITIONS: Treasury Communications Enterprise                            Page 1
                        Procurement Was Poorly Planned, Executed, and Documented (OIG-06-028)
FAR   Federal Acquisition Regulation
FTS   Federal Telecommunications System
GAO   Government Accountability Office
GC    General Counsel
GSA   General Services Administration
IRS   Internal Revenue Service
IP    Internet Protocol
MOU   Memorandum of Understanding
OIG   Office of Inspector General
OMB   Office of Management and Budget
RFP   Request for Proposals
TCE   Treasury Communications Enterprise
TCS   Treasury Communications Services




      MAJOR ACQUISITIONS: Treasury Communications Enterprise                  Page 2
      Procurement Was Poorly Planned, Executed, and Documented (OIG-06-028)
                                                                           Audit
OIG
The Department of the Treasury
                                                                           Report
Office of Inspector General




                  February 10, 2006

                  Sandra L. Pack
                  Assistant Secretary for Management and
                     Chief Financial Officer

                  This report presents the results of our audit of the business case
                  for the Treasury Communications Enterprise (TCE) project.
                  Treasury’s current telecommunication services are being provided
                  through the Treasury Communications System (TCS). The TCS
                  contract expired in September 2005. In May 2004, Treasury
                  issued a request for proposals (RFP) to replace TCS. The new
                  telecommunication services procurement, TCE, was estimated to
                  be potentially worth $1 billion over its expected 10-year life (i.e.,
                  an initial 3-year base period and 7 option years, which were
                  expected to be exercised). TCE was intended to serve many
                  Treasury activities, such as paying bills, executing personnel
                  transactions, and sharing information between law enforcement
                  and financial institutions. Treasury also intended for TCE to
                  expand the range of transactions that it conducts on-line with
                  citizens and businesses, including the filing of tax returns and bill
                  paying with electronic invoices. The Internal Revenue Service (IRS)
                  administers the procurement activities for TCE on behalf of the
                  Department.

                  Our audit was initiated in January 2005 in accordance with the
                  Office of Inspector General Fiscal Year 2005 Annual Plan. Our
                  objective was to determine whether Treasury’s business case for
                  the TCE procurement was based on appropriate and supportable
                  assumptions and cost/benefit estimates. To accomplish this
                  objective, we: (1) reviewed pertinent Federal Acquisition Regulation
                  (FAR), Office of Management and Budget (OMB), and Treasury
                  requirements; (2) interviewed officials and staff with Departmental
                  Offices, including the Chief Information Officer (CIO), who is the

                  MAJOR ACQUISITIONS: Treasury Communications Enterprise                  Page 3
                  Procurement Was Poorly Planned, Executed, and Documented (OIG-06-028)
                      TCE project owner, IRS, OMB, and the General Services
                      Administration (GSA); and (3) reviewed Office of the CIO and IRS
                      records for TCE. It should be noted that based on the results of
                      our review of the business case support for TCE and other events
                      that occurred during our audit, we expanded our inquiries to cover
                      both the planning and execution of the TCE acquisition.

                      In December 2004, Treasury awarded the TCE contract to AT&T.
                      Shortly thereafter, a group of unsuccessful bidders protested the
                      award, and in March 2005 the protest was sustained by the U.S.
                      Government Accountability Office (GAO). 1 One basis for the
                      decision to sustain the protest was because Treasury entered into a
                      Memorandum of Understanding (MOU) with OMB and the GSA
                      Federal Technology Service prior to the award and without the
                      bidders’ knowledge. The MOU significantly changed the approach
                      set forth in the solicitation for determining whether the
                      Government would exercise option years of the contract, making it
                      significantly less likely that the options would be exercised. This
                      materially altered the basis upon which vendors prepared their
                      proposals. A second basis for GAO sustaining the protest dealt
                      with IRS’s price evaluation of AT&T’s bid, which GAO found to be
                      unreasonable. In response to the decision, Treasury informed GAO
                      in May 2005 that the Department would terminate the TCE
                      contract with AT&T and intended to acquire TCE services through
                      GSA contracting vehicles.

                      Since this initial response to GAO on the protest decision, Treasury
                      has reversed its course. Specifically, in August 2005, Treasury
                      and GSA mutually agreed to terminate the MOU, and Treasury
                      informed GAO that Treasury now fully intends to acquire its wide-
                      area network requirements through the TCE solicitation pursuant to
                      the recommendations in the GAO protest decision.


Results in Brief
                      Treasury’s poor planning and execution of the TCE procurement led
                      to delays and increased costs. Specifically, we found that

1
 Decision of the Comptroller General, Northrop Grumman Information Technology, Inc.; Broadwing
Communications LLC; Level 3 Communications, Inc; Qwest Government Services, Inc.; MCI
WORLDCOM Communications, Inc.; B-295526 et al.; March 16, 2005.

                      MAJOR ACQUISITIONS: Treasury Communications Enterprise                  Page 4
                      Procurement Was Poorly Planned, Executed, and Documented (OIG-06-028)
Treasury’s consideration of GSA contract vehicles, both at the
outset and following the TCE bid protest decision, was incomplete
and that the business case documentation provided by Treasury,
both during and after completion of our fieldwork, was deficient.
We expected the documents provided for our review to show
evidence that Treasury had considered various GSA (government-
wide) telecommunications contract vehicles as alternatives to TCE
during 2002 and 2003. This was done to a limited extent, but the
documents provided did not show evidence that cost analyses had
been performed to compare TCE with these alternatives. Further,
Treasury was not able to provide an adequate business case
supporting this major acquisition. Throughout our audit field work,
we made repeated requests for planning documents, including the
TCE business case. Initially, we were given several documents
represented by Treasury to be the business case for TCE. We
found these documents to be deficient. Subsequently, in response
to both discussion and formal drafts of this report and additional
discussions with the Treasury CIO and IRS procurement officials,
we were provided additional documentation in a piecemeal manner.
In response to our official draft for comment issued October 19,
2005, we were provided, on November 18, 2005, approximately
800 pages of additional documentation. This last set of
documentation did show evidence of a planning effort. However,
the documents were neither cohesive, comprehensive, nor
complete. Furthermore, even after the 800 additional pages were
provided to us, we found out about an amendment to the MOU
with GSA that had not previously been provided.

The contract files for the TCE project that Treasury provided during
our fieldwork lacked adequate documentation of senior
management approval of the TCE acquisition plan and failed to
adequately detail how Treasury had arrived at its $1 billion cost
estimate for TCE. Although some of the information that Treasury
subsequently provided on November 18, 2005, after we completed
our fieldwork, was related to approval of the acquisition plan and
the TCE cost estimate, it also did not constitute adequate
documentation.

Our report contains three recommendations. In light of the fact
that Treasury has reopened the TCE solicitation, we are
recommending that Treasury consider all options before awarding


MAJOR ACQUISITIONS: Treasury Communications Enterprise                  Page 5
Procurement Was Poorly Planned, Executed, and Documented (OIG-06-028)
the contract, including the option of canceling the solicitation. The
approach taken should be thoroughly documented to support the
decisions made, and evidence approval by senior management.
Appropriate consultation should be made with OMB and
Congressional stakeholders about the decision made, with any
concerns they may raise being fully and carefully considered. We
are also recommending that if Treasury awards a contract under
the TCE solicitation that provides for option periods, the
contracting officer should conduct a rigorous, defendable, and
documented analysis in accordance with the FAR before the
options are exercised to determine whether the option price is
better than the prices available in the market at the time the option
is considered. The analyses should consider prices under
government-wide telecommunications contract vehicles available at
the time. Furthermore, we are recommending that for future major
procurements, all relevant planning and decision documents be
maintained in a manner to be readily available for management
reference and review as well as audit.

Management Response

In her written response to our draft report, the Assistant Secretary
for Management and Chief Financial Officer (ASM/CFO) stated that
Treasury concurs with all of our recommendations. The ASM/CFO
has directed that corrective actions be taken to address the
recommendations in our report, and she indicates that a number of
actions are in process.

The response acknowledges that our report identifies legitimate
concerns about the completeness and lack of organization of the
documentation of the TCE business case and decisions of senior
management officials with respect to TCE. Management agrees
that it is essential that the Department be able to provide the
Office of Inspector General (OIG) with a cohesive and complete
record of the TCE project. To meet the OIG’s needs, as well as to
remedy its own difficulties in accessing this information,
management has undertaken to assemble a cohesive and complete
set of TCE-related project management files in a single repository.

Management also recognized the importance of maintaining
documentation necessary to record senior management officials’


MAJOR ACQUISITIONS: Treasury Communications Enterprise                  Page 6
Procurement Was Poorly Planned, Executed, and Documented (OIG-06-028)
deliberations and decisions. The response asserts that the TCE
contract files have complied with all requirements and that the
project has had the full support of Treasury senior officials, who
have been briefed regularly on TCE. However, the supporting
documentation did not consistently nor clearly reflect senior
management decisions to the extent necessary for management
review and audit. In this regard, the Department has begun to
document the decisions made by the appropriate senior officials in
signed memoranda.

The ASM/CFO also stated that while incomplete documentation
can have important consequences, management does not believe
that in this case it prevented the Department from making the
correct decision in selecting among the available alternatives to
meet its telecommunications requirements. Going forward, to
ensure that Treasury is following industry best practices in
managing this program, the Department has employed a consultant
who specializes in large federal information technology
acquisitions.

In the response, the ASM/CFO requested OIG’s assistance in
reviewing management’s plans to address documentation and other
deficiencies identified with TCE.

The text of the management response is included in this report as
appendix 4.

OIG Evaluation

We believe the response represents a commitment by management
to address our recommendations. Management will need to record
its specific corrective actions and target dates for planned
corrective actions in the Department’s Joint Audit Management
Enterprise System pursuant to Treasury Directive 40-03, Treasury
Audit Resolution, Follow-Up, and Closure. We request that the
specific corrective actions taken and planned be provided to our
office within 30 days of this report. We will be pleased to work
with management in assessing its plans and progress in
implementing the corrective actions.




MAJOR ACQUISITIONS: Treasury Communications Enterprise                  Page 7
Procurement Was Poorly Planned, Executed, and Documented (OIG-06-028)
Background
                      The TCS contract was awarded in 1995 and expired at the end of
                      September 2005 (with terms that allow for a 6-month extension).
                      TCS provides Treasury with a telecommunications infrastructure
                      that integrates the Federal Telecommunications System (FTS)
                      2000 2 and network-based services. TCS enables a wide range of
                      applications through independent networks to support its
                      customers’ mission by integrating respective information systems.
                      It also supports a wide range of services, including video
                      conferencing, multimedia applications, and Internet/Intranet access.

                      In May 2004, IRS issued an RFP for a TCS replacement contract,
                      TCE, to supply telecommunication services to all of Treasury and
                      its bureaus. TCE was envisioned to enable the convergence of
                      data, voice, and video technologies that TCS now provides through
                      independent networks into a single network infrastructure that
                      supports the operation of applications and services across the
                      entire operating environment through enterprise-wide managed
                      services. Unlike TCS where the contractor maintained
                      telecommunications equipment owned by Treasury, the TCE
                      contractor would take title to the current TCS network assets,
                      making use of any equipment it deemed useful in providing
                      network connectivity and management services, and disposing of
                      the remainder. In effect, the concept of TCE is that Treasury is
                      purchasing a “dial tone.”

                      During this time, GSA was developing a new telecommunications
                      program to be available government-wide, Networx. The current
                      GSA telecommunication services contracts (FTS 2000 and FTS
                      2001) will expire at the end of 2006, with extensions for transition
                      to the end of 2007. To meet all the government objectives GSA
                      plans to award two Networx contracts – Universal and Enterprise.
                      The Universal contract provides FTS 2001 continuity and service
                      coverage to 9,800 wire centers, approximately 16,000 buildings,
                      and support for 135 agencies. The Enterprise contract provides
                      opportunities for smaller contractors to offer agencies more choices

2
 FTS 2000 is the government’s long-distance telecommunications program administered by GSA. FTS
2000 is a private network providing voice, data, and video services to federal employees across the
country. The Department uses FTS 2000 for all non-local voice services and for services mandated by
Federal Information Resources Management Regulations.

                      MAJOR ACQUISITIONS: Treasury Communications Enterprise                  Page 8
                      Procurement Was Poorly Planned, Executed, and Documented (OIG-06-028)
by bundling optional services with a mandatory core of Internet
Protocol (IP) and wireless services. According to GSA, Networx is
planned to provide all the services included in TCE - integration of
IP, wireless, security, managed services, and equipment options
that provide flexibility in a changing technology environment. GSA
released the Networx Universal and Enterprise RFPs in May 2005.
Industry responses to the Networx Universal and Enterprise were
due in October 2005, with awards expected (as of February 2006)
to be made for Universal in March 2007 and for Enterprise in May
2007.

On December 3, 2004, Treasury awarded an Indefinite-Delivery
Indefinite-Quantity contract to AT&T for TCE. However, on
December 2, 2004, at the urging of the House Government Reform
Committee and OMB, Treasury entered into a MOU with OMB and
GSA’s Federal Technology Service. The MOU established roles and
responsibilities for Treasury and GSA to determine whether
Treasury should migrate TCE requirements to a GSA government-
wide telecommunications program (Networx) upon the expiration of
the TCE contract 3-year base period. Among other things, the
MOU provided that Treasury and GSA work together to conduct a
best value analysis to determine whether exercising the TCE option
years or transitioning to FTS-Networx was in the best interest of
the government. In the event that Treasury and GSA could not
come to agreement or reasonable determination as to best value,
the MOU provided that Treasury and GSA would jointly present the
business case to OMB for adjudication. Treasury’s CIO signed the
MOU on behalf of the Department.

Protests were filed against Treasury for its decision to award the
TCE contract to AT&T. In March 2005, GAO sustained the
protests. GAO determined that the Treasury/GSA/OMB MOU
significantly changed the approach set forth in the solicitation and
the FAR for determining whether to exercise the option years of
the contract, making it significantly less likely that the option years
would be exercised, and thus materially altered the basis upon
which the bidders prepared their proposals. The protesters also
challenged Treasury’s price evaluation for the TCE contract,
asserting that the evaluated pricing did not reasonably reflect the
likely cost to the government of the various proposals. As
discussed in its Decision, GAO found that the price evaluation was


MAJOR ACQUISITIONS: Treasury Communications Enterprise                  Page 9
Procurement Was Poorly Planned, Executed, and Documented (OIG-06-028)
            unreasonable in that it understated the cost of AT&T’s proposal,
            failed to account for ambiguities in AT&T’s proposal, and failed to
            ensure that the price evaluation was on a common basis. GAO
            recommended that Treasury: (1) amend the solicitation to reflect its
            actual approach to option determination, open discussions with all
            offerors, obtain revised proposals and evaluate the revised
            proposals in a manner consistent with the solicitation requirements;
            (2) terminate AT&T’s contract and make award to that other
            offeror if it is determined that an offeror other than AT&T has
            submitted the best-value proposal; and (3) reimburse the protesters
            for the costs of filing and pursuing their protests.

            In a letter dated May 20, 2005, the IRS informed GAO that it
            intended to: (1) terminate the TCE contract with AT&T and (2) use
            GSA contracting vehicles to acquire the requirements delineated in
            the TCE solicitation. At the end of our fieldwork, the protesters
            had filed claims with the IRS for costs related to their protests
            totaling approximately $1.75 million. According to the IRS, the
            final settlement amounts paid for these claims totaled
            approximately $1 million.

            In a letter dated August 15, 2005, as a change in its previous
            decision to use GSA contracting vehicles, the IRS informed GAO
            that Treasury was proceeding with the TCE solicitation pursuant to
            the recommendations in the March 2005 bid protest Decision.
            Treasury and GSA also agreed to terminate the MOU.

Findings and Recommendations

Finding 1   Poor Planning and Execution of TCE Resulted in Delays
            and Increased Costs

            From our review of documents provided to us by Treasury,
            including those provided after completion of our fieldwork, we
            believe that in its haste to proceed with TCE, Treasury lost
            potential opportunities for cost savings and made unnecessary
            mistakes that delayed its goal to replace TCS before September
            2005. Our review of the approximately 800 pages of documents
            we received from the Treasury CIO on November 18, 2005—nearly



            MAJOR ACQUISITIONS: Treasury Communications Enterprise                  Page 10
            Procurement Was Poorly Planned, Executed, and Documented (OIG-06-028)
                          a month after issuance of our formal draft report 3 —found they did
                          show some evidence of planning for and senior management
                          involvement in the TCE procurement. However, the additional
                          documentation was neither cohesive, comprehensive, nor complete
                          and did not alter our overall finding. Specifically, we found that
                          Treasury’s consideration of GSA contract vehicles, both at the
                          outset and following the TCE bid protest decision, was incomplete
                          and that the business planning and procurement documentation
                          provided by Treasury, both during and after completion of our
                          fieldwork, was deficient.

                          As described in GAO’s Standards for Internal Control in the Federal
                          Government, control activities are the policies, procedures,
                          techniques, and mechanisms that enforce management’s
                          directives. They help ensure that actions are taken to address
                          risks. Control activities are an integral part of an entity’s planning,
                          implementing, reviewing, and accountability for stewardship of
                          government resources and achieving effective results. Control
                          activities occur at all levels and functions of the entity. They
                          include a wide range of diverse activities such as approvals,
                          authorizations, and the creation and maintenance of related records
                          which provide evidence of execution of these activities as well as
                          appropriate documentation. With respect to capital planning for a
                          project such as TCE, a key control activity is the development of a
                          sound and supportable business case for the project. It should be
                          noted that OMB Circular A-11, Preparation, Submission and
                          Execution of the Budget, which provides instructions to agencies
                          on reporting requirements for major IT investments, as well as
                          guidance to agencies on how to manage capital assets like TCE,
                          also strongly encourages agencies to prepare a sound business
                          case for the project. The related OMB Capital Programming Guide
                          provides that an agency’s capital planning process is an integral
                          part of the strategic planning process, including business planning
                          for individual investments within the various levels of agencies and
                          bureaus. Failure to properly plan and establish comprehensive
                          business plans often results in cost overruns, schedule delays, and
                          assets that fail to perform as expected.




3
    See appendix 2 for a timeline of key events related to the TCE solicitation and our audit.

                          MAJOR ACQUISITIONS: Treasury Communications Enterprise                  Page 11
                          Procurement Was Poorly Planned, Executed, and Documented (OIG-06-028)
                       As explained in the CIO’s transmittal memorandum for the
                       materials provided on November 18, which is included as
                       appendix 3, that information was obtained through a search of
                       Treasury’s databases, including historical archived information and
                       inactive accounts. Because these materials could be produced only
                       through such extraordinary means, we conclude that institutional
                       knowledge of what had transpired in the planning of this expensive
                       acquisition was not available to Treasury’s decision makers or
                       business owners for TCE. Moreover, despite the potential
                       $1 billion cost estimated for TCE, we saw little evidence of
                       adequate senior management oversight of the project. Most
                       notable was the decision by the current CIO, who joined Treasury
                       in June 2004, to proceed with the project without thoroughly
                       reviewing the planning, justification, and management decisions
                       that were previously made. As a result, Treasury management
                       proceeded with the TCE acquisition without the requisite assurance
                       that all requirements, options, and costs were appropriately
                       considered.

                       Treasury Did Not Demonstrate that GSA Contract Vehicles Were
                       Fully Considered before Proceeding with TCE

                       We expected the documents provided for our review to show
                       evidence that Treasury had considered various GSA government-
                       wide telecommunications contract vehicles as alternatives to TCE
                       during 2002 and 2003. This was done to a limited extent.
                       However, as discussed in more detail below, the documents
                       provided did not show evidence that cost analyses had been
                       performed to compare TCE with these alternatives. The
                       documents did show three reasons identified by Treasury for not
                       pursuing GSA contract vehicles: (1) the various GSA contract
                       vehicles would expire during 2006 through 2009, thus requiring a
                       second transition by Treasury; (2) the GSA contract vehicles did
                       not provide for the full range of TCE requirements or for a
                       “managed services” 4 approach to the acquisition of

4
  Under the managed services approach to information technology contracting, the responsibility for all
engineering, connectivity, equipment, maintenance, network management, security, etc., of an
information technology system is transferred by the government to the vendor, leaving the government
in a position of oversight. This relationship enables the government to pass the day-to-day management
to the technical experts, while concurrently implementing stricter levels of service through service-level
agreements and performance-based contracts.

                       MAJOR ACQUISITIONS: Treasury Communications Enterprise                     Page 12
                       Procurement Was Poorly Planned, Executed, and Documented (OIG-06-028)
                        telecommunications needs; and (3) GSA’s overhead charges for its
                        services. With regard to the first reason, the documentation
                        provided no evidence that Treasury had estimated the cost of the
                        transition from TCS to TCE or from TCS to a GSA contract vehicle.
                        There was also no evidence provided for the cost of a second
                        transition. 5 With regard to the second reason, we did not see
                        evidence that Treasury had analyzed the specific services
                        contemplated by TCE that could not be obtained through the
                        available GSA contract vehicles and whether Treasury could do
                        without these services in the short term. In a memorandum dated
                        December 15, 2003, the former Treasury CIO recommended to the
                        ASM/CFO at the time that Treasury proceed with the TCE
                        acquisition as the best approach. 6 Finally, with regard to the third
                        reason, since cost analyses were not performed we could not
                        determine, nor could Treasury, whether GSA’s overhead charges
                        were reasonable or not.

                        The TCE solicitation issued by Treasury was dated May 4, 2004.
                        On that date, Treasury received an email message from a GSA
                        Assistant Commissioner extending an offer to work with Treasury
                        to develop alternatives to TCE. 7 In that email, the GSA official
                        stated the following:

                               In my view, the TCE vision involves a unilateral
                               approach that does not benefit from the collective
                               buying power of the government. Further, an
                               independent approach will not allow you to quickly
                               benefit from the lower prices for services pre-
                               negotiated by FTS and available today. Under GSA
                               and FTS, fulfillment of your strategy could be
                               accomplished within a matter of months verses well


5
 The documents provided for our review included a table showing transition costs to TCS from
Treasury’s predecessor telecommunications services contract. Those costs, according to the table,
were incurred from fiscal years 1996 through 2000 and totaled approximately $19.7 million. Treasury
estimated in 2005 that a second transition would cost $2.8 million.

6
 No evidence of the ASM/CFO’s concurrence with the recommendation was in the documentation
provided.

7
    The GSA email was addressed to the Treasury Deputy CIO.


                        MAJOR ACQUISITIONS: Treasury Communications Enterprise                  Page 13
                        Procurement Was Poorly Planned, Executed, and Documented (OIG-06-028)
                               over a year….We would welcome the opportunity to
                               benchmark FTS against your current or anticipated
                               prices to demonstrate these savings as it could mean
                               millions in reduced costs for your important Treasury
                               customers. (Emphasis added)

                       The GSA official also recommended that Treasury perform a
                       detailed business case analysis of the TCE acquisition to determine
                       the real impact of Treasury’s concerns about GSA overhead.

                       In a May 5, 2004, email, Treasury responded to the GSA official
                       that after considering all factors, Treasury had decided to proceed
                       with TCE. The email said, in part, that Treasury “must mitigate the
                       risk of the possibility of having to transition twice from TCS to
                       FTS2001 to Networx.” Treasury also informed the GSA official
                       that the TCE solicitation had been released approximately 2 hours
                       before his email was received. 8

                       We believe it would have been prudent for Treasury to have
                       cancelled the then just-issued TCE solicitation and pursue GSA’s
                       explicit offer to benchmark FTS for the TCE requirements. 9 We
                       consider this to have been a missed opportunity by Treasury to
                       determine conclusively whether GSA could meet TCE requirements
                       at a more competitive price.

                       The decision to proceed with TCE was the subject of meetings and
                       email messages between Treasury and OMB throughout 2004. In
                       an internal Treasury email dated May 19, 2004, the Acting Deputy
                       CIO summarized a meeting with OMB as having gone well. He
                       specifically mentioned in the email that one OMB staff member

8
  The documentation provided for our review contained conflicting information as to when the TCE
solicitation was actually released. The TCE solicitation was dated May 4, 2005. However, a May 4th
internal email, which discussed GSA’s offer, indicated that “the TCE” (which we construe to mean the
TCE solicitation) would not be released until the following Friday (May 7). Another document prepared
for a briefing by the Treasury CIO to the Deputy Secretary, dated November 29, 2004, stated that the
TCE solicitation was issued on May 5, 2004.
9
  Had Treasury promptly canceled the solicitation to consider GSA’s offer, Treasury could have avoided
or minimized potential liability for bid preparation costs. This potential liability became a significant
factor in Treasury’s re-assessment of GSA contract vehicles in 2005 after the successful protest of the
TCE contract award.


                       MAJOR ACQUISITIONS: Treasury Communications Enterprise                     Page 14
                       Procurement Was Poorly Planned, Executed, and Documented (OIG-06-028)
                      appeared to have been satisfied with Treasury’s answer to why
                      Treasury was not using GSA and understood the risk of a double
                      transition from FTS 2001 and Networx.

                      OMB subsequently asked Treasury for additional information,
                      including answers to a series of questions concerning TCE cost
                      estimates compared to GSA prices. OMB also asked whether
                      Treasury had obtained a telecommunications service cost analysis
                      from GSA. The documentation provided for our review did not
                      include Treasury’s final reply to OMB. However, in a draft reply
                      prepared by the Office of the CIO and the IRS National
                      Procurement Office, 10 Treasury stated that providing the requested
                      information regarding cost comparisons with GSA contract vehicles
                      was not possible because of “fundamental differences in bundling
                      services under a small number of [contract line item numbers] for
                      TCE.” 11 The draft reply gave essentially the same response to
                      OMB’s question as to whether Treasury obtained a
                      telecommunications service cost analysis from GSA. When we
                      asked why Treasury had not obtained this analysis, the Treasury
                      CIO told us that it was not required.

                      On December 2, 2004, Treasury entered into the MOU with GSA
                      and OMB that provided for Treasury and GSA to conduct a price
                      analysis with the planned Networx before the TCE option period
                      was executed (which would occur after the TCE 3-year base
                      period). Treasury awarded the TCE contract to AT&T the next
                      day. Shortly thereafter, the other bidders protested the contract
                      award. One basis of the protest was that the MOU was not made
                      known to the bidders before the contract award and it materially
                      altered the RFP to make the exercise of the option periods less
                      likely. The protest was sustained by GAO in March 2005 for this
                      reason, and also because Treasury’s price evaluation of AT&T’s bid

10
  The draft reply was attached to an email message from the Treasury CIO to the Acting Assistant
Secretary for Mangement (ASM) dated August 13, 2004. In the email message, the CIO advised the
Acting ASM that OMB was still concerned about TCE.

11
  Although Treasury implies in this draft reply to OMB that a cost comparison could not be done
because of disparities between GSA contract vehicles and TCE, a November 2002 consultant-prepared
document entitled TCE Baseline Business Case Approach provided for our review on November 18,
2004, included a discussion of a return on investment analysis that showed estimated costs for TCS
and TCE over fiscal years 2003 through 2007, thereby evidencing that cost comparison could be done
between TCE and the GSA vehicles.

                      MAJOR ACQUISITIONS: Treasury Communications Enterprise                  Page 15
                      Procurement Was Poorly Planned, Executed, and Documented (OIG-06-028)
                         was unreasonable. Early in our audit, and before the GAO decision
                         on the protest, the Treasury CIO and an IRS procurement official
                         told us that they were confident the protest would be denied.
                         There was no indication in the documents provided for our review
                         that Treasury had assessed the impact of the MOU on the TCE
                         solicitation before making the contract award. Had such a risk
                         assessment been made and the TCE solicitation amended as
                         appropriate (i.e., the bidders informed of the MOU and the award
                         date extended), Treasury would have likely avoided the issue of the
                         MOU as a basis for the protest.

                         The documentation provided for our review did not include any
                         documents (e.g., email traffic, internal memos) about the genesis
                         of the December 2, 2004, MOU. One provision of the MOU that
                         Treasury inexplicably agreed to was that the TCE/Networx best
                         value analysis would not include transition costs, although
                         transition costs were a major reason cited earlier by Treasury for
                         not pursuing GSA contract vehicles. During a meeting with the
                         Treasury CIO and the Director, IRS Procurement, on November 28,
                         2005, we inquired about this provision in the MOU. The IRS
                         procurement official told us that the provision was “a mistake” and
                         that the MOU had subsequently been amended. This was the first
                         time we were told of this amendment, more than a month after our
                         official draft report was issued for comment. The amendment,
                         which was dated February 1, 2005, and signed by the Treasury
                         CIO and GSA, stated the following:

                                 We did not intend and will not interpret, construe or
                                 implement the MOU to conflict with or diminish the
                                 authority of the Treasury Contracting Officer,
                                 consistent with [the FAR] to exercise options under
                                 the [TCE contract].

                         Two things about this document are noteworthy. First, while OMB
                         was a signatory to the MOU, it was not a signatory to this
                         document. Second, this document effectively introduced transition
                         costs as a factor in conducting the best value analysis between
                         TCE and Networx after the TCE’s 3-year base period. 12 In
                         essence, this amendment made it less likely that Treasury would


12
     Under the FAR, the contracting officer would be expected to consider transition costs.

                         MAJOR ACQUISITIONS: Treasury Communications Enterprise                  Page 16
                         Procurement Was Poorly Planned, Executed, and Documented (OIG-06-028)
move to Networx. As with the MOU, the documentation provided
for our review did not contain information as to the genesis of the
document. There was also no evidence that Treasury had informed
OMB about this new document.

In May 2005, the IRS National Procurement Office informed GAO
that Treasury would terminate the TCE contract with AT&T and
intended to acquire TCE services through GSA contracting vehicles.
There was no evidence in the documentation provided for our
review that any analyses of GSA contract vehicles had been
performed before IRS informed GAO of this decision. It is unclear
why Treasury so quickly abandoned TCE for GSA without such an
analysis, considering Treasury’s earlier determination that GSA
could not meet its needs. When Treasury finally did analyze its
options, it reversed course to once again proceed with the TCE
solicitation. However, this most recent analysis was incomplete
and the assumptions and cost factors considered were not
adequately supported.

TCE Business Planning and Procurement Documentation Provided
during Audit Fieldwork Was Incomplete

We experienced a great deal of difficulty in obtaining
documentation throughout this audit. We were often told that
documents existed only to be told later that they did not exist.
Similarly, we received conflicting information at times that certain
documents did not exist only to find out that they did. We were
also not told of key events relevant to our audit, including events
that occurred immediately prior to meeting with the CIO and were
the subject of those meetings. Furthermore, Treasury has
experienced significant turnover and long-term vacancies in senior
leadership positions since the TCE project was first conceived until
just recently. For example, Treasury’s current CIO has served in
that position since June 2004. The ASM/CFO position was vacant
from February 2004 until August 2005, with duties related to
operational management and financial management split between
acting personnel during this period.

A business case is a structured proposal for business improvement
that functions as a decision package for organizational decision
makers. It includes an analysis of business process performance

MAJOR ACQUISITIONS: Treasury Communications Enterprise                  Page 17
Procurement Was Poorly Planned, Executed, and Documented (OIG-06-028)
and associated needs or problems, proposed alternative solutions,
assumptions, constraints, and a risk-adjusted cost-benefit analysis.
A business case provides a format to demonstrate that agency
management has used the disciplines of good project management;
presented a strong business case for the investment; and met other
Administration priorities to define the proposed cost, schedule, and
performance goals for the investment if funding approval is
obtained. In addition, a business case should address security,
privacy, and enterprise architecture and should specify the
effectiveness and efficiency gains planned by the business lines
and functional operations.

Business case documentation provided for our review during the
audit fieldwork was deficient. Early in our audit, we asked for
Treasury’s business case and related documentation for TCE,
including approval documents. We were initially told by the CIO
that such documents did not exist and if they did, he was not
aware of it. We were later provided, by the Office of the CIO, an
OMB Exhibit 300, Capital Asset Plan and Business Case, for the
fiscal year 2006 budget year titled Treasury Integrated
Infrastructure. This Exhibit 300 was a consolidated presentation as
required by OMB of all the major individual infrastructure initiatives
of the Treasury bureaus and the DO, and the Exhibit discussed
TCE. According to the CIO, this Exhibit 300 met OMB’s
requirements for capital investment planning. However, this
summary document did not provide a comprehensive business plan
by itself for TCE. With respect to TCE, it stated the following:

       The Treasury Communications Enterprise (TCE)
       converged network produces a number of tangible
       financial and operation benefits. A standardized
       architecture will dramatically reduce total cost of
       ownership while providing scalability for future
       growth. Application integration costs will also fall
       with TCE, as messaging services are consolidated into
       a single inbox. Also, TCE will reduce costs for
       network administration. TCE will optimize spending
       while improving productivity and user satisfaction with
       telecommunications services. Treasury estimates an
       overall improvement in employee productivity of 30
       minutes per day with a simplified process and easier


MAJOR ACQUISITIONS: Treasury Communications Enterprise                  Page 18
Procurement Was Poorly Planned, Executed, and Documented (OIG-06-028)
                              access. Direct user connections to the network will
                              improve campus mobility, and both internal and
                              external interoperability. Improvements in Operational
                              Support Services will lead to more accurate billing and
                              consistent service levels; while the overall structure of
                              Treasury’s managed services approach will ensure
                              high levels of customer satisfaction, as bureaus will be
                              free to pick the services they need.

                       We concluded that the consolidated Exhibit 300 did not
                       provide an adequate business case for moving forward with
                       TCE. Other than the mention of a 30-minute daily
                       improvement in employee productivity, it provided no
                       information as to the costs and benefits of TCE; the
                       alternatives considered, such as GSA’s planned Networx; or
                       why Treasury considered TCE the best course of action. 13

                       We asked whether a more detailed business case for TCE existed in
                       support of management’s decision (undocumented) or the
                       consolidated Exhibit 300. We were provided a draft Exhibit 300
                       for the fiscal year 2005 budget year by the Office of the CIO staff.
                       The capital investment covered by this draft Exhibit 300 was titled
                       TCS-DTS-TCE Network Telecommunications and Infrastructure. 14
                       Among other things, the draft Exhibit 300 described how the
                       Department needed to move from TCS to TCE because the TCS
                       contract would end in September 2005. It did not, however,
                       present information as to the estimated cost, schedule, and
                       performance goals for TCE. Additionally, it made reference to

13
   At the audit exit conference, Office of CIO staff stated that this consolidated Exhibit 300 was
prepared as part of Treasury’s capital investment submission in accordance with OMB instructions and
that OMB did not raise any concerns with the document. The context of our review of the consolidated
Exhibit 300 was to determine whether the document presented a comprehensive business case for TCE
(a sound management practice), not whether it conformed with OMB’s capital investment submission
requirements.

14
  According to the draft Exhibit 300, the Digital Telecommunications System (DTS) provides integrated
voice/data telecommunications services to all Treasury bureaus within the Washington, D.C.,
metropolitan area. The DTS initiative includes several separate programs such as (1) the DTS2
program, which provides Treasury bureaus in Washington, D.C., with a vehicle for acquiring,
implementing, operating, and managing digital communications facilities delivered as Seats or suites of
services to over 37,000 end users; and (2) voice messaging services to over 90,000 nationwide
subscribers.


                       MAJOR ACQUISITIONS: Treasury Communications Enterprise                   Page 19
                       Procurement Was Poorly Planned, Executed, and Documented (OIG-06-028)
                       formal cost/benefit and return-on-investment studies that would be
                       done in fiscal year 2004. We asked for but were not provided with
                       these studies. We subsequently learned that these studies had not
                       been performed. Furthermore, the draft did not include migration
                       to GSA’s Networx as an alternative in its analysis. 15 Based on the
                       above, we concluded that the draft Exhibit 300 did not constitute a
                       complete business case for TCE.

                       We asked the TCE Program Manager whether any other business
                       case documentation existed that mapped out Treasury decisions,
                       needs, requirements, and approval by senior management
                       authorizing the procurement phase of the TCE project. The only
                       documents the Program Manager identified were procurement
                       documents, such as the milestone document, the acquisition plan,
                       and the source selection decision document, not program office
                       planning documents, such as the TCE justification or business
                       case.

                       Early in our fieldwork, we were also informed of OMB’s reluctance
                       to Treasury’s going forward with the TCE project. We asked what
                       OMB’s concerns were. The CIO stated that although he was
                       aware when he joined Treasury that OMB, GSA, and Congress had
                       issues with the TCE project, he did not see any reason to cancel,
                       delay, or review the underlying documentation of the related RFP
                       since so much had already taken place. According to the CIO,
                       OMB wanted the government to buy smarter and have IT services
                       packaged for cost savings; GSA wanted to centralize operations;
                       and the House Government Reform Committee wanted spending to
                       be controlled and waste eliminated from new programs being
                       developed (e.g., enterprise telecommunications systems).

                       The CIO told us that Treasury had informed OMB that the TCS
                       contract was expiring soon and Treasury did not have time to wait
                       for GSA’s Networx contract. We were also told that OMB had
                       insisted on the MOU. Treasury’s CIO signed the MOU on
                       December 2, 2004, the day before the contract was awarded to
                       AT&T.


15
  The draft Exhibit 300 cited three alternatives: (1) keep TCS as is, (2) migrate TCS to TCE, and
(3) allow individual bureaus to choose their own communication services.


                       MAJOR ACQUISITIONS: Treasury Communications Enterprise                       Page 20
                       Procurement Was Poorly Planned, Executed, and Documented (OIG-06-028)
                      Subsequent Events—Treasury’s Reconsideration of GSA Contract
                      Vehicles after Bid Protest Decision Was Incomplete

                      On August 4, 2005, we provided management with a discussion
                      draft of this report, in which we concluded that Treasury was
                      prudent in (1) terminating its TCE contract with AT&T and
                      (2) intending to use GSA contracting vehicles to meet its TCE
                      requirements. On August 5, we were informed by the CIO that
                      GSA could not meet Treasury’s communications needs. The same
                      day, the CIO provided us with a consultant study dated October
                      2004 as evidence of an independent validation he had obtained of
                      Treasury’s TCE acquisition strategy.

                      At our meeting with the CIO and IRS procurement officials on
                      November 28, 2005, to discuss the additional materials provided
                      on November 18, the CIO explained that the October 2004 study
                      had been done to answer an earlier question by the OMB
                      Administrator for Electronic Government and Information
                      Technology as to whether the TCE solicitation was performance-
                      based. It is unclear why this question could not have been
                      answered through a staff review of the solicitation. That being
                      said, the consultant found that the TCE solicitation was generally in
                      the form of objectives and sought the best solution. However, the
                      consultant also noted that the solicitation was not optimally
                      structured for a best value selection as the price as a factor
                      outweighed each technical factor. According to the consultant,
                      this could result in a “low-bid” win rather than a selection based on
                      the best technical solution, and having the best solution is
                      fundamental to performance-based acquisition. Additionally, the
                      consultant noted that there were too many performance measures
                      and the measures were not clearly tied to strategic or program
                      objectives. 16 We believe that such an independent study would
                      have provided a greater benefit to Treasury if it had been obtained
                      prior to the issuing the solicitation in May 2004 so that the
                      consultant’s findings could have been considered in preparing the
                      solicitation.



16
  Acquisition Strategy Independent Validation and Verification Contract TIRN-04-K-00517 Report and
Recommendations, Acquisition Solutions, Inc., dated October 18, 2004.


                      MAJOR ACQUISITIONS: Treasury Communications Enterprise                  Page 21
                      Procurement Was Poorly Planned, Executed, and Documented (OIG-06-028)
                       After learning through various news media accounts that Treasury
                       had decided to terminate the MOU with GSA and reopen the TCE
                       solicitation, we asked the CIO on August 24 for related
                       documentation and his analysis for deciding that reopening the TCE
                       solicitation was the best course of action.

                       In response to our request, on August 26 the CIO provided the
                       following:

                       •   The agreement to terminate the MOU signed by GSA and the
                           CIO on August 4, 2005.

                       •   A document entitled TCE Solicitation Alternatives, dated
                           June 22, 2005, which the CIO stated was developed in a
                           GSA/Treasury working session. The document discussed and
                           included an analysis of three options: (1) FAR Part 15 Treasury-
                           led solicitation, (2) FAR Part 15 GSA-led solicitation, and
                           (3) FAR Part 12 GSA-led solicitation. 17

                       •   A one-page document entitled TCE Alternatives Analysis, which
                           the CIO stated was developed by Treasury to summarize the
                           above document and was to be used by participants in a
                           June 28, 2005, conference call between Treasury and GSA
                           executives.

                       •   A document entitled TCE Talking Points dated June 28, 2005,
                           which the CIO stated was used to brief OMB on June 30,
                           2005, on the conclusions reached in the Treasury/GSA
                           discussion of alternatives. The document discussed the TCE
                           background and development process, including acquisition
                           alternatives that were evaluated across the federal government
                           prior to the TCE solicitation, and five alternatives that were
                           assessed following the GAO protest decision. These
                           alternatives, the first two of which were discarded by Treasury
                           without an extensive cost/benefit analysis, were as follows:

                               Option 1 Continue with existing TCS contract until Networx
                                        is available (discarded by Treasury because option

17
  FAR Part 15 prescribes policies and procedures for competitive and non-competitive acquisitions.
FAR Part 12 prescribes policies and procedures for the acquisition of commercial items “off the shelf”
that meet the government’s needs.

                       MAJOR ACQUISITIONS: Treasury Communications Enterprise                    Page 22
                       Procurement Was Poorly Planned, Executed, and Documented (OIG-06-028)
                   did not overcome either the near-term risk of TCS
                   contract expiration or the higher costs of that
                   contract relative to current industry norms).

       Option 2 Use existing contracts and GSA government-wide
                acquisition contracts to cover functional pieces of
                the Treasury wide area network until Networx is
                available (discarded by Treasury because Option
                introduced excessive complexity with no greater
                benefit than Options 3 and 4).

       Option 3 Modify and use GSA FTS contract until Networx is
                available. This option would involve
                (1) terminating the AT&T contract, (2) canceling
                the TCE solicitation, (3) reformatting the TCE
                solicitation for solicitation under FTS, and
                (4) coordinating with GSA to develop modifications
                to FTS.

       Option 4 Take corrective action and follow full and open
                approach (i.e., proceed with the TCE solicitation).
                This option would involve (1) rescinding the MOU
                with GSA and OMB, (2) terminating the AT&T
                contract, and (3) advising offerors under the TCE
                solicitation of the cancellation of the MOU,
                identifying the shortcomings in their proposal, and
                instructing them to follow pricing instructions in
                the TCE solicitation.

       Option 5 Use GSA-led full and open competition. This
                option, which was proposed by GSA, would
                involve (1) terminating the AT&T contract,
                (2) canceling the TCE solicitation, and (3) working
                with GSA to modify the TCE solicitation for
                solicitation under GSA. The option would provide
                for a base contract period of 3 years and up to
                7 option years, and would allow Treasury to
                transition to Networx.

   The TCE Talking Points document also included a section called
   “Recommendation and Next Steps,” but there was no narrative


MAJOR ACQUISITIONS: Treasury Communications Enterprise                  Page 23
Procurement Was Poorly Planned, Executed, and Documented (OIG-06-028)
    in this section. However, based on our discussions with the
    CIO, Treasury is now pursuing Option 4 as outlined in the
    document.

•   A letter from the IRS Office of the Chief Counsel dated
    August 15, 2005, informing GAO of the following: “While
    Treasury initially indicated otherwise in its letter dated May 20,
    2005, Treasury now fully intends to acquire its wide-area
    network requirements through the Treasury Communication
    Enterprise (‘TCE’) solicitation pursuant to the recommendations
    set forth in GAO’s decision dated March 16, 2005.”

We have a general concern and number of specific concerns with
the documentation provided in August 2005. Our general concern
is that these documents do not reflect a complete record of
Treasury’s interactions with GSA and how Treasury reached the
conclusion that GSA was unable to meet the Department’s
communication needs. In a letter transmitting these documents to
us, the CIO stated the following:

       Treasury’s and GSA’s communications regarding this
       matter began in May 2005 and were conducted
       primarily face-to-face and over the telephone. There
       was little in the way of discussion of substantive
       issues in correspondence, electronic or otherwise.
       However, a number of documents were created to
       capture the discussions that had taken place and/or to
       provide a basis for briefing others. Those documents
       are attached, and we describe here the functions
       those documents served. [Note: The attached
       documents referred to were the above-described TCE
       Solicitation Alternatives, TCE Alternatives Analysis,
       and TCE Talking Points.]

At the audit exit conference on September 7, 2005, the CIO and
the Director, IRS Procurement, provided additional details about the
meetings with GSA in which the pros and cons of the options were
discussed, including legal issues that might result in protests or
otherwise preclude serious consideration of certain options through
GSA contracting vehicles. Although we asked for all
documentation of all communications with GSA, we were not

MAJOR ACQUISITIONS: Treasury Communications Enterprise                  Page 24
Procurement Was Poorly Planned, Executed, and Documented (OIG-06-028)
                        provided minutes or other records that documented the parties to
                        the communications, specific discussion points, and areas of
                        agreement and disagreement. We were also provided no
                        documentation of the results of the June 30 meeting with OMB,
                        which we were told at the exit conference that GSA officials had
                        attended along with Treasury. We were also told at the exit
                        conference that Treasury and GSA officials had briefed staff with
                        the House Committee on Government Reform about this matter.
                        We were not provided with minutes of that meeting. The
                        fundamental principle of government accountability dictates that an
                        agency maintain a record adequate to permit meaningful review.
                        We believe that the documentation provided on how Treasury
                        came to the decision to reopen the TCE solicitation falls short of an
                        adequate record.

                        The TCE Talking Points included a comparison of several cost
                        factors for the three options that were considered (i.e., not
                        discarded) by Treasury. As shown in the following table, the totals
                        of these cost factors appear to support the selection of Option 4
                        (i.e., proceed with the TCE solicitation) as the least costly
                        approach:

                                                              Option 4
                                   Option 3
                                                       Take Corrective Action          Option 5
  Costs Identified by        Modify and Use FTS
                                                         and Follow Full and      Use GSA-Led Full and
      Treasury              Contract Until Networx
                                                           Open Approach           Open Competition
                                 Is Available
                                                       (Selected by Treasury)
Totals                                $27,450,000                 $1,000,000                $39,650,000

                        However, the individual cost factors included in the above totals
                        were based on certain significant and unsupportable assumptions,
                        including the following:

                        •   Treasury estimated a cost factor for Option 5 identified as
                            “Overspend vs. Full and Open for Services” that was not
                            included in Options 3 and 4. This cost factor was based on
                            two estimates. The first estimate was that Option 5 would
                            require an additional 3 months to accomplish when compared to
                            the other two options. The second estimate was the additional
                            monthly cost to Treasury to continue operating under the TCS
                            contract compared to TCE. This estimated additional monthly
                            cost was based on (1) the current annual TCS contract cost

                        MAJOR ACQUISITIONS: Treasury Communications Enterprise                   Page 25
                        Procurement Was Poorly Planned, Executed, and Documented (OIG-06-028)
                          plus an additional 10 percent Treasury expected to be charged
                          by the TCS contractor after that contract expired in September
                          2005 less (2) the annual TCE cost “based on vendor proposals”
                          for the protested TCE contract award.

                          We make several observations regarding these estimates. First,
                          Treasury cited as its basis for the 10 percent increase in TCS
                          costs that there was no incentive for the TCS contractor to
                          lower costs. While this could be true, it should be noted that
                          the TCS contractor did submit a proposal in 2004 for the
                          original TCE solicitation and therefore could have had an
                          incentive to at least hold TCS costs steady beyond the contract
                          expiration. 18 Second, the annual TCE cost was based on the
                          AT&T proposal. In this regard, GAO found that Treasury’s price
                          evaluation was unreasonable in that it understated the cost of
                          AT&T’s proposal, failed to account for ambiguities in AT&T’s
                          proposal, and failed to ensure that the price evaluation was on a
                          common basis.

                      •   Treasury estimated a cost factor that would be incurred for
                          Options 3 and 5 if the TCE contract was cancelled to
                          compensate the vendors for their bid preparation costs.
                          Treasury did not cite a basis for the estimate on the document.
                          According to the CIO and IRS procurement officials, this
                          estimate was developed during a meeting and was based on the
                          “subject matter expertise” of the teams and salaries that
                          vendors would put together to develop a bid. They said that no
                          further documentation was available for review.

                      Most important, a key analysis that was not included in the TCE
                      Talking Points and other documents provided by the CIO was a
                      comparison of the services that Treasury would receive under the
                      options presented. We believe this is a significant omission in the
                      presentation and without such a comparison of services it is
                      difficult, if not impossible, to determine which option represented
                      the best course for Treasury.

                      In conclusion, we believe that the additional documentation
                      provided by the CIO in August and November 2005 does not

18
  On December 7, 2005, the day before proposals in response to the new TCE solicitation were due,
the current TCS contractor announced that it had decided not to bid on the TCE contract.

                      MAJOR ACQUISITIONS: Treasury Communications Enterprise                  Page 26
                      Procurement Was Poorly Planned, Executed, and Documented (OIG-06-028)
            represent a comprehensive and compelling business case for
            proceeding with the TCE solicitation. We are also concerned that
            Treasury generally has not been forthcoming in providing
            information to our auditors about TCE. For example, when we met
            with the CIO on August 5 about the status of TCE, we were not
            told that Treasury and GSA had terminated the MOU the day
            before. Additionally, during our audit, we made repeated requests
            for the business case or anything else available supporting TCE.
            We were provided many documents only after learning through the
            media that Treasury had reversed course and intended to proceed
            with the TCE solicitation. With the ongoing stakeholder criticism of
            the TCE project, the lack of planning and a sound business case for
            TCE as noted in our finding, and the planned initiatives by GSA to
            acquire telecommunications services on a government-wide basis,
            it is difficult—based on the extent and quality of the documentation
            provided—to understand why Treasury still intends to proceed with
            TCE. That being said, in going forward with the TCE solicitation,
            Treasury needs to ensure that the problems with the price
            evaluation identified by GAO in the protest decision are addressed.

            As a final observation, should Treasury award the planned TCE
            solicitation with a base 3-year period and option years, it needs to
            ensure that appropriate analyses are conducted in accordance with
            the FAR before the option years are exercised. According to the
            Director, IRS Procurement, at the exit conference, the best value
            analysis provision included in the terminated Treasury/GSA/OMB
            MOU was similar to the required analysis in the FAR, with the key
            distinction that the analysis under the FAR is the responsibility of
            the contracting officer for the procurement.

Finding 2   Contract Files Lacked Certain Documentation

            The materials that Treasury provided during our fieldwork lacked
            adequate documentation of senior management approval of the
            TCE acquisition plan and failed to adequately detail how Treasury
            had arrived at its $1 billion cost estimate for TCE. Although some
            of the information that Treasury provided after we completed our
            fieldwork was related to approval of the acquisition plan and the
            TCE cost estimate, it did not constitute adequate documentation.




            MAJOR ACQUISITIONS: Treasury Communications Enterprise                  Page 27
            Procurement Was Poorly Planned, Executed, and Documented (OIG-06-028)
The FAR, Subpart 4.8, Government Contract Files, states that the
documentation in contract files shall be sufficient to constitute a
complete history of the transaction to, among other things, provide
a background as a basis for informed decisions at each step in the
acquisition process and to support the actions taken. Examples
cited as to the type of records normally to be retained in the
contract file include, but are not limited to, (1) the purchase
request, (2) acquisition planning information, (3) justifications and
approvals, and (4) the government estimate of the contract price.
In addition, as noted in Finding 1, GAO’s Standards for Internal
Control in the Federal Government states that internal control
activities include creation and maintenance of records that provide
evidence of execution of approvals and authorizations.

We were unable to find an approval document within the TCE
contract file for proceeding to the procurement stage of the
process. The acquisition plan was not signed and did not
adequately address all required elements. According to the FAR,
the acquisition plan’s cost line item must identify the established
cost goals for the acquisition, the rationale supporting them, and
discuss related cost concepts to be employed, including as
appropriate the life-cycle cost. The TCE acquisition plan showed
only the estimated cost of $1 billion on the front of the document.
Under the cost line item it stated: “we need to eet (sic) the TCS
number and reduce by X%.” Additionally, the FAR requires the
plan to describe how budget estimates were derived and to discuss
the schedule for obtaining adequate funds. The TCE acquisition
plan stated that funding will be provided by individual ordering
offices and will be obligated on individual delivery orders or task
orders. The minimum commitment on the contract will be stated in
terms of the number of sites, etc. It did not identify the estimated
dollar amount, nor did it identify the Working Capital Fund as the
funding vehicle.

Furthermore, no documentation existed that detailed how the TCE
estimated cost of $1 billion was determined. In this regard, the
TCE Program Manager told us that he and the IRS contracting
officer for the TCE procurement developed the estimate in an
“undocumented exercise.” [DELETED]




MAJOR ACQUISITIONS: Treasury Communications Enterprise                  Page 28
Procurement Was Poorly Planned, Executed, and Documented (OIG-06-028)
With regard to our queries about an approval document to proceed
with the TCE procurement, the CIO said that everything was done
prior to his arrival at Treasury. Furthermore, he did not think that
there was such an approval document, but suggested we contact
the Source Selection Official for the TCE procurement, who was
formerly with the Office of the CIO at the time the TCE concept
was being developed. We met with this official and he said that
the current TCE Program Manager would be the most
knowledgeable person to speak to about TCE because the
individual supervised both the program and technical teams for
TCE. We followed up with the TCE Program Manager regarding
approval documentation for TCE. We inquired as to whether he
had any documentation for TCE denoting senior-level management
approval to proceed with the procurement. He stated that he came
on board after the decision was made to procure TCE and could
not provide the requested documentation. The TCE Program
Manager did suggest, however, that an approval document might
be in the TCE contract files.

The additional documentation provided for our review on
November 18, 2005 – a month after the date of our draft report –
included a memorandum to the TCE procurement files signed by
the IRS contracting officer and dated November 8, 2005, that
consisted of two attachments. The first attachment was referred
to as a “replacement” signature page to the acquisition plan and
was signed by the contracting officer and dated November 8,
2005. The memorandum stated that the signature page had been
executed on or about January 8, 2004, but had been misplaced.



MAJOR ACQUISITIONS: Treasury Communications Enterprise                  Page 29
Procurement Was Poorly Planned, Executed, and Documented (OIG-06-028)
             The second attachment was a description of the analysis
             conducted to determine an estimated value for TCE capability.
             [DELETED]




                       While this attachment provides some additional details of
             the process used, it did not provide the specific analysis performed
             to derive the $1 billion cost estimate for TCE.

Recommendations

             Treasury amended and reopened the TCE solicitation in October
             2005 to the original bidders. Extended several times, the deadline
             for bids was December 8, 2005. We believe that Treasury’s
             decision to go forward with the TCE solicitation involves
             considerable risk. One risk is that without an adequate cost and
             services comparison with other government-wide
             telecommunications contract vehicles, TCE may not represent the
             best solution. Another risk is that further successful protests and
             resultant delays and increased costs may occur if Treasury has not
             adequately addressed the problems noted by GAO, such as its
             price evaluation of vendor proposals. With respect to this second
             risk, Treasury informed GAO that it would comply with GAO’s bid
             protest decision, which addresses the price evaluation process.
             We are making three recommendations to address the other
             conditions found in our audit. Specifically, the Assistant Secretary
             for Management and Chief Financial Officer should take the
             following steps:

             1. In light of the fact the Treasury has reopened the solicitation,
                ensure that Treasury considers all options before awarding the
                contract, including the option of canceling the solicitation. The
                approach taken should be thoroughly documented (i.e., with a

             MAJOR ACQUISITIONS: Treasury Communications Enterprise                  Page 30
             Procurement Was Poorly Planned, Executed, and Documented (OIG-06-028)
    sound business case) to support the decisions made and there
    should be evidence of approval by senior management.
    Appropriate consultation should be made with OMB and
    Congressional stakeholders about the decision made, with any
    concerns they may raise being fully and carefully considered.

2. If Treasury awards a contract under the TCE solicitation that
   provides for option periods, ensure that the contracting officer
   conducts a rigorous and defendable analysis in accordance with
   the FAR before any options are exercised to determine whether
   the option price is better that the prices available in the market
   or that the option is the more advantageous offer. The
   analyses should consider prices under available government-
   wide telecommunications contract vehicles. The analyses
   should also be fully documented in the procurement records.

3. In the future, ensure that planning and decision documents for
   major acquisitions (e.g., business cases, cost/benefit analyses
   of alternatives considered and the bases for those analyses,
   minutes or other records of key events, approval by senior
   leadership) are maintained in a manner to be readily available for
   management reference and review as well as for audit.

                                 ******

The major contributors to this report are identified in appendix 5. If
you have any questions, please contact me at (202) 927-5400 or
Thomas E. Byrnes, Director of Procurement Audits, at
(202) 927-5904.




Marla A. Freedman
Assistant Inspector General for Audit




MAJOR ACQUISITIONS: Treasury Communications Enterprise                  Page 31
Procurement Was Poorly Planned, Executed, and Documented (OIG-06-028)
Appendix 1
Objective, Scope, and Methodology




We reviewed the TCE procurement as part of the Office of
Inspector General Fiscal Year 2005 Annual Plan. Our objective
was to determine whether Treasury’s business case for the TCE
acquisition was based on appropriate and supportable assumptions
and cost/benefit estimates. Based on the results of our review of
the business case support for TCE and other events that occurred
during our audit, we expanded our inquiries to cover both the
planning and execution of the TCE acquisition.

We began our fieldwork in February 2005, at the Departmental
Offices in Washington, D.C., and the IRS National Procurement
organization in Oxon Hill, Maryland. As part of our fieldwork, we
reviewed laws, regulations, guidance, and Treasury directives
applicable to capital asset acquisitions. We also reviewed contract
files and related documentation. We interviewed the Treasury CIO
and officials and staff with the Office of the CIO, IRS, OMB, GSA,
and GAO.

In addition, we interviewed GSA officials regarding GSA’s planned
Networx telecommunications contract to be awarded in 2007 and
we compared the types of services in the Networx solicitation to
those in the TCE solicitation. We also reviewed the Departmental
Offices planning process, documentation, and contract files for
compliance with applicable laws, regulations, guidance, and
Treasury Directives.

As discussed in our report, business case and other planning
documentation was provided for our review in a piecemeal fashion.
Collectively, that documentation was neither cohesive,
comprehensive, nor complete. That documentation included 800
pages assembled by the Office of CIO and provided for our review
on November 18, 2005, after we issued our formal draft report for
official comment. According to the CIO, these documents were
identified through a search of Treasury databases using an
automated tool. That search yielded over 60 gigabytes of data
based on a keyword search for TCE from which management made
hardcopies of matters related to Treasury planning, senior
management engagement, and documents provided to GSA and/or
OMB. Management also provided us the search data on seven
DVDs, which included over 121,000 files. We performed a limited
review of these DVDs and found some additional documentation


MAJOR ACQUISITIONS: Treasury Communications Enterprise                  Page 32
Procurement Was Poorly Planned, Executed, and Documented (OIG-06-028)
Appendix 1
Objective, Scope, and Methodology




related to TCE planning that was not included in the hardcopy
documentation provided by management. This additional
documentation, however, did not affect our conclusions in this
report.

We conducted our audit in accordance with generally accepted
government auditing standards.




MAJOR ACQUISITIONS: Treasury Communications Enterprise                  Page 33
Procurement Was Poorly Planned, Executed, and Documented (OIG-06-028)
             Appendix 2
             Timeline of Key Events Related to the TCE Solicitation and Our Audit




             Following is a timeline of key events related to the TCE solicitation
             and our audit. The events affecting our audit (in bold) include
             dates on which we provided draft reports to and conducted exit
             conferences with management and dates on which substantive
             additional documentation relative to the planning and execution of
             the TCE solicitation was provided by management for our review.

    >                                                                                                >
        |                    |                    |                     |                     |
    5/4/2004             12/2/2004            12/3/2004             1/10/2005             2/9/2005

Date of Treasury’s       Treasury CIO      Treasury awards           OIG issues         OIG holds audit
  solicitation for     signs MOU with      TCE contract to          engagement             entrance
       TCE.            GSA and OMB.       AT&T; bid protest        memorandum.           conference.
                                            filed with GAO
                                          shortly thereafter.
    >                                                                                                >
      |                  |                |                 |               |                  |
  3/16/2005          5/20/2005        8/4/2005          8/5/2005        8/15/2005          8/24/2005

GAO sustains         Treasury        CIO and GSA       OIG meets          Treasury         OIG requests
 bid protest.     informs GAO           agree to       with CIO on     informs GAO             other
                 that it intends       terminate        discussion      that it now       documentation
                    to cancel            MOU.           draft; CIO       intends to        discussed at
                 AT&T contract                          provides a     proceed with         8/5/2005
                  and use GSA        OIG issues        consultant           TCE              meeting.
                   contracting       discussion          study as       solicitation.
                     vehicles.     draft of report.    evidence of
                                                      TCE planning.
    >                                                                                                >
     |                   |                |                |                 |                  |
 8/26/2005           9/7/2005        10/17/2005       10/19/2005        11/13/2005         11/18/2005

CIO provides     OIG holds first      OIG holds         OIG issues     CIO requests       CIO provides
 additional            exit          second exit       formal draft    extension for      800 pages of
documents.         conference        conference         report for     comments to          additional
                  with CIO and           with             official      12/2/2005;       documentation
                 representatives      ASM/CFO,          comment;          request           identified
                  from IRS and         CIO, and         comments        granted by       through search
                     General       representatives     were due in          OIG.          of databases.
                  Counsel (GC).     from IRS and         30 days
                                         GC.          (11/18/2005).
    >
                          |                                                  |
                     11/28/2005                                         11/30/2005

OIG is informed of 2/1/2005 amendment to MOU            Office of CIO provides MOU amendment and
during meeting with CIO and representatives from         seven DVDs containing over 121,000 files
                  IRS and GC.                              obtained through search of databases.




             MAJOR ACQUISITIONS: Treasury Communications Enterprise                             Page 34
             Procurement Was Poorly Planned, Executed, and Documented (OIG-06-028)
Appendix 3
Treasury CIO Transmittal Memorandum for Documentation Provided to OIG on
November 18, 2005




MAJOR ACQUISITIONS: Treasury Communications Enterprise                  Page 35
Procurement Was Poorly Planned, Executed, and Documented (OIG-06-028)
Appendix 3
Treasury CIO Transmittal Memorandum for Documentation Provided to OIG on
November 18, 2005




MAJOR ACQUISITIONS: Treasury Communications Enterprise                  Page 36
Procurement Was Poorly Planned, Executed, and Documented (OIG-06-028)
Appendix 4
Management Response




MAJOR ACQUISITIONS: Treasury Communications Enterprise                  Page 37
Procurement Was Poorly Planned, Executed, and Documented (OIG-06-028)
Appendix 4
Management Response




MAJOR ACQUISITIONS: Treasury Communications Enterprise                  Page 38
Procurement Was Poorly Planned, Executed, and Documented (OIG-06-028)
Appendix 4
Management Response




MAJOR ACQUISITIONS: Treasury Communications Enterprise                  Page 39
Procurement Was Poorly Planned, Executed, and Documented (OIG-06-028)
Appendix 5
Major Contributors to This Report


Thomas E. Byrnes, Director, Manufacturing and Procurement
  Audits
Cynthia S. McKelvin, Audit Manager
Cedric Hammond, Sr., Program Manager
Ricardo Cabarrouy, Auditor
Gerald Kelly, Auditor
Esther M. Tepper, Writing Consultant
Delores Dabney, Referencer




MAJOR ACQUISITIONS: Treasury Communications Enterprise                  Page 40
Procurement Was Poorly Planned, Executed, and Documented (OIG-06-028)
Appendix 6
Report Distribution




The Department of the Treasury

Assistant Secretary for Management and Chief Financial Officer
Chief Information Officer
Assistant Secretary for Legislative Affairs
Assistant Secretary for Public Affairs
Director, Office of the Procurement Executive
Office of Accounting and Internal Control
Office of Strategic Planning and Performance Management

Internal Revenue Service

Director, IRS Procurement

Office of Management and Budget

OIG Budget Examiner




MAJOR ACQUISITIONS: Treasury Communications Enterprise                  Page 41
Procurement Was Poorly Planned, Executed, and Documented (OIG-06-028)
